19-1291

IN THE SUPREME COURT OF THE UNITED STATES
CHARLES HAMNER,
v.

Petitioner,

DANNY BURLS, ET AL.
Respondents.
On Writ of Certiorari to the United States
Court of Appeals for the Eighth Circuit
PROOF OF SERVICE
I, Ruth Brown, hereby certify that I am member of the bar of this Court, and
that on this 8th day of June 2020, I caused an electronic copy of the Amicus Curiae
Brief in Support of Petitioner in the above-captioned case to be served on the
following electronically:
Daniel M. Greenfield
MacArthur Justice Center
Northwestern Pritzker School of Law
375 E. Chicago Ave.
Chicago, IL 60611-3069
Daniel-greenfield@law.northwestern.edu

Nicholas Jacob Bronni
Solicitor General of Arkansas
Arkansas Attorney General's Office
323 Center St., Suite 200
Little Rock, AR 72201
Nicholas.bronni@arkansasg.gov

/s/ Ruth Brown
Ruth Brown
Counsel of Record for
Amici Curiae

